 DEPARTMENT OF HOMELAND SECURITY

  Ofﬁce of Inspector General

  A Review of the Use of Stolen Passports
        from Visa Waiver Countries
         to Enter the United States




Ofﬁce of Inspections, Evaluations, & Special Reviews


OIG-05-07                  December 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Acting Inspector General
                                                                                                                         Contents
  Introduction ......................................................................................................................................3

  Results in Brief.................................................................................................................................3

  Background......................................................................................................................................5

  Purpose, Scope, and Methodology...................................................................................................9

  Findings

          Use of Stolen Passports to Enter the United States...............................................................11

          Monitoring and Investigating the Use of Stolen Passports ...................................................20

          Efforts to Improve Detection of Stolen Passports.................................................................23


Appendices

  Appendix A:             Management Comments .......................................................................................26
  Appendix B:             OIG Evaluation of Management Comments ........................................................33
  Appendix C:             Recommendations ................................................................................................37
  Appendix D:             Major Contributors to this Report ........................................................................38
  Appendix E:             Report Distribution ...............................................................................................39


Abbreviations

  APIS                        Advance Passenger Information System
  CBP                         Customs and Border Protection - a BTS component
  DHS                         Department of Homeland Security
  DOB                         Date of Birth
  DOJ                         Department of Justice
  DOS                         Department of State
  EPIC                        El Paso Intelligence Center - a federal, interagency law enforcement support
                              operation
  FDL                         Forensic Document Laboratory - an ICE component
  FY                          Fiscal Year
  GAO                         General Accounting Ofﬁce (now the Government Accountability Ofﬁce)



                                    A Review of the Use of Stolen Passports from                                                                  Page 1
                                  Visa Waiver Countries to Enter the United States
Contents

   ICAO       International Civil Aviation Organization - a United Nations organization
   ICE        Immigration and Customs Enforcement - a BTS component
   ICN        Inventory Control Number
   IFM        Inspectors Field Manual
   INA        Immigration and Nationality Act
   INTERPOL   International Criminal Police Organization
   NCIC       National Crime Information Center
   NIIS       Non-Immigrant Information System
   NTC        National Targeting Center - a CBP component
   OIG        Ofﬁce of Inspector General
   PAU        Passenger Analysis Unit
   POE        Port of Entry
   TECS       Treasury Enforcement Communications System
   US-VISIT   United States Visitor and Immigrant Status Indicator Technology
   VWP        Visa Waiver Program




Page 2                           A Review of the Use of Stolen Passports from
                               Visa Waiver Countries to Enter the United States
OIG
Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                                 Our review encompassed the actions taken by Customs and Border Protection
                                 (CBP) inspectors when aliens seeking admission into the United States attempt to
                                 use stolen passports. Previously, we reported on the national security implications
                                 of the lost and stolen passport problem in our review of the Visa Waiver Program
                                 (VWP).1 This review examines information that we obtained during our VWP
                                 review relating to non-VWP matters of sufﬁcient independent importance to
                                 warrant the initiation of a separate review.


    Results in Brief
                                 Aliens applying for admission to the United States using stolen passports have
                                 little reason to fear being caught and are usually admitted. Our analysis showed
                                 that it made only a small difference whether the stolen passports were posted in
                                 the lookout system.2 We reviewed two groups of aliens who used stolen passports
                                 to attempt to enter the United States. One group did not have lookouts posted
                                 for their stolen passports prior to their attempted entries. From this group, 79
                                 out of 98 aliens attempting entry were admitted. The second group had lookouts
                                 posted for their stolen passports prior to their attempted entries. From the second
                                 group, 57 out of 78 aliens attempting entry were admitted - 33 of these admissions
                                 occurred after September 11, 2001. Even though 39 aliens from the second group
                                 were referred to secondary inspections for more intensive interviews, 18 were
                                 subsequently admitted.

                                 Further, we could not determine from the secondary inspections records the
                                 inspectors’ rationale for admitting the aliens with lookouts for the stolen

    1
     An Evaluation of the Security Implications of the Visa Waiver Program, Report Number OIG-04-26, April 2004.
    2
     A lookout system contains information about an alien who is or may be inadmissible into the United States, or may be of interest to a law
    enforcement agency. Reasons for posting a lookout include immigration or visa violations, alien smuggling, suspected criminal activity or
    actual convictions, and suspected terrorist afﬁliations.




                                       A Review of the Use of Stolen Passports from                                                    Page 3
                                     Visa Waiver Countries to Enter the United States
         passports. The records of the secondary inspections often were nonexistent or so
         sketchy that they were not useful.

         Finally, we determined that when CBP receives new reports of stolen passports, it
         does not routinely review existing admission records to determine whether any of
         the stolen passports have already been used. Even if there was such a procedure,
         there is no formal protocol for providing information concerning the use of stolen
         passports to Immigration and Customs Enforcement (ICE).

         While the 136 successful entries using stolen passports is a relatively small
         number, it is signiﬁcant for several reasons. First, the passports were obtained
         by criminal acts. Second, though small, the number could and should be zero, at
         least for those admissions that occurred after lookouts were posted. Actionable
         information was reported and logged into the lookout systems, yet entry was
         accomplished, defeating a costly apparatus established precisely to prevent
         such an occurrence. Third, there was no law enforcement pursuit once it was
         recognized that an illegal entry had occurred.

         We are recommending that CBP develop procedures that:

             •   Require primary inspectors to refer aliens to secondary inspections when
                 the aliens’ passports are the subjects of lookouts;

             •   Require inspectors to record in detail the results of the secondary
                 inspections and justiﬁcations for any subsequent admissions;

             •   Require supervisory review and approval of an inspector’s decision to
                 admit an alien who was the subject of a lookout, and ensure that the
                 review is recorded as part of the secondary inspections record;

             •   Require inspectors to timely enter name-based lookouts for aliens found
                 inadmissible.

             •   Initiate routine reviews of admission records to identify prior uses of
                 stolen passports; and

             •   Report information on the successful use of stolen passports to enter the
                 United States to ICE for investigation.




Page 4                      A Review of the Use of Stolen Passports from
                          Visa Waiver Countries to Enter the United States
                             In addition, we are recommending that ICE develop procedures to investigate,
                             locate, and remove from the United States aliens who have used stolen passports
                             to gain entry to the country and to report the outcomes of its investigations to
                             CBP. For the aliens who used certain stolen passports that have terrorist links,
                             ICE should investigate their activities while in the United States and determine
                             their current whereabouts.
Background
                             CBP inspects all aliens arriving at ports of entry (POEs) to determine their
                             eligibility for admission into the United States. The inspection process consists
                             of primary inspections for all arriving aliens, and when required, more detailed
                             secondary inspections for certain aliens. Inspectors use the Treasury Enforcement
                             Communications System (TECS) to conduct queries of lookout databases
                             concerning aliens applying for admission.3

                             Pre-arrival Passenger Screening

                             Airlines submit Advance Passenger Information System (APIS) data to CBP
                             prior to the arrival of the aircraft at a U.S. POE. APIS data contains the names,
                             passport numbers, and other biographical information about the passengers on
                             the aircraft. The data is provided simultaneously to analysts at CBP’s National
                             Targeting Center (NTC), and the POE’s Passenger Analysis Unit (PAU). NTC
                             and PAU analysts review the APIS data and conduct database queries using
                             TECS. If the NTC or PAU analysts discover potentially derogatory information
                             about certain passengers or otherwise believe particular passengers require more
                             intensive scrutiny by the POE inspectors, the analysts will enter lookouts for the
                             passengers into TECS. These lookouts notify the primary POE inspectors that
                             certain passengers are to be referred to secondary inspections.

                             Lookouts

                             CBP inspectors have several database systems available for their use during
                             primary and secondary inspections. Some of these database systems contain
                             lookouts. A lookout is an entry into a database system when a determination
                             has been made that an alien is or may be inadmissible into the United States, or
                             may be of interest to a law enforcement agency. Reasons for posting a lookout
                             include immigration or visa violations, alien smuggling, suspected criminal

3
  TECS is an interagency lookout and inspections support system that was designed to facilitate and control more effectively the entry of
persons into the United States. Nine cabinet level departments and additional independent agencies participate in TECS. TECS is used in
CBP primary inspection processing and collects the results of CBP secondary inspections.


                                   A Review of the Use of Stolen Passports from                                                   Page 5
                                 Visa Waiver Countries to Enter the United States
                             activity or actual convictions, and suspected terrorist afﬁliations. Inspectors
                             access the database systems using TECS. When an inspector conducting primary
                             inspections enters the alien’s name, date of birth (DOB), passport number, or
                             other information into TECS that matches a lookout, a message automatically is
                             sent to the inspector advising that a match or “hit” has occurred. The message
                             warns the inspector that the alien may be ineligible for admission.

                             The Department of Justice (DOJ) Ofﬁce of Inspector General (OIG) reported
                             in February 2003 that many inspectors were not knowledgeable about lookout
                             query requirements and procedures and did not always perform the required
                             lookout queries.4 DOJ OIG concluded that POE management or local training
                             staffs needed to reiterate the policies to ensure complete understanding of and
                             compliance with requirements.

                             Additionally, DOJ OIG also reported that the inspection disposition data in TECS
                             for ﬁscal year (FY) 2002 was inaccurate and incomplete. TECS reﬂected more
                             than 41,000 unknown inspection dispositions for aliens referred to secondary
                             inspections in FY 2002. Of these 41,000 unknown dispositions, primary
                             inspectors identiﬁed more than 2,800 as lookout matches. DOJ OIG determined
                             that management needed to ensure that inspectors accurately report the results of
                             secondary inspections in TECS.

                             Primary Inspections

                             The goal of primary inspections is to admit legitimate aliens into the United States
                             quickly while identifying and referring high-risk or possibly inadmissible aliens
                             for more detailed secondary inspections. When an alien goes through primary
                             inspections, the inspector scans the machine readable portion of the passport into
                             TECS. If the passport is not machine readable, the inspector manually enters the
                             passport number.5 The inspector establishes the identity of the alien and inspects
                             the documents for validity and authenticity.

                             If the inspectors identify inconsistencies between the TECS records and the
                             documents presented, they attempt to resolve or clarify them immediately. They
                             usually do this by asking aliens some additional questions. If the inspectors


4
 The Immigration and Naturalization Service’s Primary Inspections at Air Ports of Entry, Report Number 03-15, February 2003.
5
 Beginning September 30, 2004, all travelers entering the United States under the VWP must present a machine readable passport.
This should reduce the number of times that an inspector will have to manually enter passport numbers, thus reducing data entry errors.
However, inventory control numbers (ICN) on the passports will not be read with the machine readable passport number. The ICN is the
number used to post stolen blank passport lookouts. We will address this issue later in our report.


Page 6                                                 A Review of the Use of Stolen Passports from
                                                     Visa Waiver Countries to Enter the United States
                            cannot quickly resolve the issues, the aliens are sent to secondary inspections for
                            more thorough examinations.

                            If there is a lookout “hit” indicating that the passport is stolen, the alien is sent
                            immediately to secondary inspections. The inspector creates an inspections
                            referral report in TECS in which the inspector speciﬁes the grounds for potential
                            inadmissibility and any other comments regarding the alien. The inspections
                            referral report is transmitted to an inspector in secondary inspections.

                            Secondary Inspections

                            Secondary inspections, unlike the few seconds or minutes for primary inspections,
                            may last hours while inspectors verify the aliens’ identities and travel documents.

                            During secondary inspections, the inspectors verify that the lookout for the
                            passport is valid often by contacting the NTC by telephone. If the inspectors
                            determine that the passport is stolen, the alien is inadmissible. The inspection
                            referral report is annotated with the ﬁnal disposition of the case, and the alien is
                            returned to his or her home country, referred for prosecution, or may apply for
                            asylum.

                            Reporting Lost and Stolen Passports

                            During our recent review of the VWP, we reported on the lack of a centralized
                            mechanism for foreign governments to report lost and stolen travel document
                            data to the U.S. government. In May 2004, the U.S. National Central Bureau of
                            the International Criminal Police Organization (INTERPOL) announced that the
                            United States was joining 40 other countries in providing current information
                            on lost or stolen travel documents to the INTERPOL database. The INTERPOL
                            lost and stolen passport database has been operational since July 2002 and is
                            available to law enforcement and immigration authorities worldwide. The United
                            States agreed to transfer 320,000 records of lost or stolen U.S. passports reported
                            since 2002. INTERPOL’s database presently contains approximately 1.6 million
                            records reported by 41 INTERPOL member countries. Of the 1.6 million records,
                            approximately 60% are passports, predominantly lost or stolen from the bearer,
                            while 40% are national identiﬁcation documents.6 Although the passport is the
                            only document required of aliens under the VWP, just 7 of the 27 VWP countries
                            currently participate in the stolen travel document database.

6
 Testimony of James Sullivan, Director of the U.S. National Central Bureau of INTERPOL, before the House International Relations
Committee, June 23, 2004.


                                  A Review of the Use of Stolen Passports from                                                Page 7
                                Visa Waiver Countries to Enter the United States
                              Because of weak reporting procedures, the exact number of lost and stolen travel
                              documents potentially available to male ﬁde aliens is unknown. The Department
                              of State (DOS) receives most of the stolen passport reports from foreign
                              governments. Based on DOS reports from January 2002 to June 2004, 28 foreign
                              governments reported 56,943 stolen blank foreign passports. In June 2004, the
                              Director of the U.S. National Central Bureau of INTERPOL said that for 55 of
                              the 181 INTERPOL countries, there probably were over 10 million lost and stolen
                              passports that might be in circulation. In August 2004, according to CBP data,
                              there were records of 1.2 million stolen passports in TECS.

                              National Security Concerns

                              The vast numbers of stolen passports available present signiﬁcant challenges for
                              controlling entry across U.S. borders. While most persons using stolen passports
                              to enter illegally into the United States may be simply violating immigration laws,
                              some could have more sinister intentions. Persons seeking to enter the United
                              States can obtain stolen blank passports from criminals, have their biographical
                              information and pictures attached to the blank passport, and present themselves at
                              POEs for admission to the United States.7

                              High quality biographical and photographic forgeries make detecting male ﬁde
                              aliens difﬁcult. However, if a foreign government has reported the stolen passport
                              data and that information is entered into the lookout system, the POE inspectors
                              have an invaluable tool to assist them in detecting stolen passports.

                              The table below depicts the number of aliens that CBP inspected between 1998
                              and 2003. It also shows that about one third of inspections involved aliens
                              traveling from VWP countries. Finally, the table depicts the total number of
                              fraudulent passports intercepted by inspectors at the POEs.




7
 Aliens may also obtain passports that were stolen from individuals. The stolen passports are often modiﬁed by replacing the existing
photographs and biographical data with that of the intended users of the stolen passports. These “substitutions” are usually easier for an
inspector to detect. However, unlike substitutions, stolen blank passports modiﬁed with high quality photographs and biographic data are
very difﬁcult to detect.



Page 8                                                 A Review of the Use of Stolen Passports from
                                                     Visa Waiver Countries to Enter the United States
                                                           Inspections at U.S. POEs

                                                                                  Total VWP          Total Fraudulent
                                                          Total Aliens
                                       Year                                        Travelers         Foreign Passports
                                                           Inspected
                                                                                   Inspected            Intercepted
                                       1998                40,400,012             15,307,084                 7,088
                                       1999                42,184,510             16,035,297                 8,123
                                     2000          44,596,364                     16,944,988                8,288
                                     2001          43,069,684                     15,839,057                11,399
                                     2002          36,678,082                     12,804,891                8,588
                                     2003          35,828,356                     12,708,910                4,368
                              Source: CBP Performance Analysis System



Purpose, Scope, and Methodology
                              During our ﬁeldwork for the VWP review, Department of Homeland Security
                              (DHS) analysts told us about stolen blank passports that were used by aliens
                              to enter the United States illegally. This information was developed initially
                              in support of the VWP country assessment process.8 After the initial discovery
                              of the use of stolen passports, the DHS analysts conducted further queries to
                              identify uses of other stolen passports. This review examines information that we
                              obtained from DHS analysts during our VWP review. Our review assesses the
                              efﬁcacy of CBP’s efforts to identify users of stolen passports and prevent them
                              from entering the United States.

                              During the period February 10, 1998, to February 12, 2003, several foreign
                              governments reported 3,987 stolen blank passports to the U.S. government.9
                              Using the reported stolen passport information, DHS analysts conducted extensive
                              database queries on all 3,987 stolen passports and identiﬁed 176 uses of the stolen
                              passports to attempt entry into the United States. Some of these entries were
                              made before the stolen passports were reported to the U.S. government, while


8
  The VWP enabling legislation required that the Attorney General periodically evaluate the effect of each country’s continued VWP
participation from a law enforcement and security perspective. The purpose of these reviews is to make in-depth assessments of relevant
conditions and practices in VWP countries from the perspective of U.S. law enforcement and national security interests. One factor that is
examined is the country’s passport security, especially the frequency and volume of thefts of blank, unissued passports.
9
  The 3,987 stolen passports are a subset of all stolen passports reported during this time. The subset is not a random or statistically based
sample. These passports were selected by DHS analysts for closer examination because stolen passports from these countries posed the
highest potential risk, in part because these countries were also VWP countries. Certain travelers from VWP countries are permitted to
enter the United States without ﬁrst applying for visas; this makes VWP passports more vulnerable to fraudulent use by male ﬁde travelers.


                                    A Review of the Use of Stolen Passports from                                                      Page 9
                                  Visa Waiver Countries to Enter the United States
                             some of the entries were made after lookouts were posted for the stolen passports.
                             DHS provided us with the results of these queries, including the aliens’ names,
                             DOBs, POEs, passport numbers, and dates of entry associated with the uses of
                             these stolen passports. The table below summarizes the attempted entries using
                             stolen passports.

                                        Attempted Entries Using Stolen Blank Passports

                                                                              Number
                                                                             of Entries          Number of Entries
                                Issuing         Number of Stolen
                                                                            Attempted             Attempted After
                                Country         Blanks Reported
                                                                          Before Lookouts         Lookouts Posted
                                                                               Posted
                               France                   1,300                     0                        11
                               Spain                    1,102                    26                        15
                               Germany                    500                    19                        15
                               Portugal                   500                     9                        10
                               Belgium                    450                    44                        25
                               Italy                      135                     0                         6
                               TOTAL                    3,987                    98                       7810

                             The following table shows in which years the 176 uses of the stolen passports
                             occurred between 1998 and 2003.

                               Number of Attempted Entries by Year Using Stolen Blank Passports

                                 Issuing
                                               1998             1999        2000          2001           2002          2003
                                Country
                               France             0               0           0             1              7            2
                               Spain              0              14          12             1              1            11
                               Germany            0               0           5            19             10            0
                               Portugal           0               0           9             9              0            0
                               Belgium            1              10          17            31              3            7
                               Italy              0               0           0             0              3            3
                                TOTAL             1              24          43            61             24           2311



10
   Four additional aliens using stolen passports who were sent to secondary inspections requested asylum hearings. They were temporarily
paroled into the United States for the purposes of attending their credible fear hearings. We did not include their “admissions” in our
analysis.
11
   Four additional aliens using stolen passports who were sent to secondary inspections requested asylum hearings. They were temporarily
paroled into the United States for the purposes of attending their credible fear hearings. We did not include their “admissions” in our
analysis.



Page 10                                                 A Review of the Use of Stolen Passports from
                                                      Visa Waiver Countries to Enter the United States
                Using this information, we reviewed electronic admissions records in TECS to
                conﬁrm the dates of the posting of the lookouts, the dates the stolen passports
                were presented at the POEs, the dates of admission of the aliens, and the dates
                of departure. More importantly, we sought to determine the rationale used by
                the inspectors to “resolve” the stolen passport lookout “hits” and admit the
                aliens. Using TECS, we accessed and reviewed the reports of both primary and
                secondary inspections associated with the use of the stolen passports. Finally,
                we reviewed the actions taken by CBP and ICE to identify entries into the United
                States using stolen passports and the subsequent follow-up investigations to locate
                and remove the aliens.

                We reviewed the Inspectors Field Manual (IFM) and other documents provided
                by CBP that governed procedures that inspectors must follow during the primary
                and secondary inspections processes, as well as actions that they must take when
                intercepting aliens with stolen passports. We interviewed analysts at DHS, NTC,
                and the Forensic Document Laboratory (FDL). We also interviewed senior
                managers at CBP and ICE.

                This inspection was conducted under the authority of the Inspector General Act
                of 1978, as amended, and according to the “Quality Standards for Inspections”
                issued by the President’s Council on Integrity and Efﬁciency.


Findings
      Use of Stolen Passports to Enter the United States

                Aliens applying for admission into the United States using stolen passports
                were usually admitted. It made little difference whether lookouts for the stolen
                passports existed because the aliens were often admitted even after the lookouts
                were posted.

                We veriﬁed the stolen passport data that DHS provided to us by performing
                the same actions required of the POE inspectors and using the same computer
                systems available to POE inspectors. Using TECS, we entered the passport
                numbers provided by DHS. The results of our queries conﬁrmed that entries
                were made, the dates of the entries, and the dates the lookouts were posted for
                the stolen passports. Then, again using TECS, we entered the aliens’ names and
                DOBs provided by DHS that were associated with the stolen passports to review



                    A Review of the Use of Stolen Passports from                           Page 11
                  Visa Waiver Countries to Enter the United States
                              the electronic inspection records for all aliens attempting to use stolen passports.
                              The inspection records provided us with information concerning the inspectors’
                              actions during primary and secondary inspections and the ﬁnal admission
                              decisions. From these records we were able to determine whether the aliens were
                              successful in entering the United States. Again, using TECS and the names of the
                              aliens who were admitted, we queried the Non-Immigrant Information System
                              (NIIS) to reconﬁrm the dates of entry, the reasons for admission, and the dates of
                              departure, if available. Finally, we queried the lookout systems using the names
                              of the aliens to determine whether there were any additional lookouts for the
                              aliens.

                              We examined two groups of aliens using stolen passports. The ﬁrst group
                              attempted to enter the United States prior to lookouts being posted for the stolen
                              passports. The second group attempted their entries after the lookouts for the
                              stolen passports were posted. The table below depicts the results of our analysis
                              of reported incidents of stolen blank passports used to attempt entry into the
                              United States.

                                                  Attempted Entries Using Stolen Blank Passports

                                                           Entry Attempted                              Entry Attempted
                                                        Before Lookouts Posted                       After Lookouts Posted
                                   Issuing            Attempted       Successful                  Attempted        Successful
                                  Country              Entries          Entries                    Entries12         Entries
                               France                      0                0                         11                 7
                               Spain                      26               24                         15                 3
                               Germany                    19                7                         15                14
                               Portugal                    9                6                         10                 5
                               Belgium                    44               42                         25                22
                               Italy                       0                0                          6                 6
                               TOTAL                      98               79                        7813               57

                              From the ﬁrst group of aliens who applied for admission before the lookouts were
                              posted, 98 presented stolen passports and inspectors subsequently admitted 79.
                              This represented an 81% success rate.


12
   Two aliens made nine subsequent successful entries using passports other than the stolen passports ﬁrst used to enter the United States.
We included these attempts in our analysis because they occurred even after name based lookouts had been posted following the ﬁrst
entries using the stolen passports.
13
   Four additional aliens using stolen passports who were sent to secondary inspections requested asylum hearings. They were temporarily
paroled into the United States for the purposes of attending their credible fear hearings. We did not include their “admissions” in our
analysis.



Page 12                                                A Review of the Use of Stolen Passports from
                                                     Visa Waiver Countries to Enter the United States
                              We focused our examination on the second group of aliens who attempted entry
                              after the stolen passport lookouts were posted. For all records of entry, we
                              veriﬁed that lookouts had been posted for the stolen passports prior to the date
                              of entry.14 Starting with the names of the aliens provided to us by DHS, we ran
                              checks using TECS. In all cases, there was an admission record for the alien
                              showing the attempted entry into the United States using a passport that had been
                              reported stolen. To verify that a lookout had been posted prior to the date of entry,
                              we entered the passport number in TECS. In every case, a lookout had been
                              entered for the stolen passport prior to the entry date of the alien.

                              For the group with the posted lookouts, 57 of 78 aliens were admitted - 73%
                              success rate. Of the 78 aliens attempting entry, 39 were admitted directly from
                              primary inspections, while the other 39 were referred to secondary inspections.
                              Of those referred to secondary inspections, 18 were admitted. Of the 57 aliens
                              who were admitted, 33 were admitted after September 11, 2001.

                              Some aliens entered the United States multiple times using stolen passports:

                                   •     An alien using a Belgian passport reported stolen entered the United
                                         States four times after the lookout was posted. The alien was referred to
                                         secondary inspections once. According to the entry in the TECS records
                                         of the alien’s secondary inspections, “subject never had problems before;
                                         never had PP stolen or lost; subject has many prior entrys [sic] and
                                         secondary evidence.” After the fourth entry, the alien obtained a different
                                         passport and entered the United States seven more times despite a name
                                         based15 lookout.

                                   •     An alien using a stolen Belgian passport for which a lookout was posted
                                         entered the United States twice using the stolen passport. The alien
                                         was not referred to secondary inspections either time. Again, the stolen
                                         passport was never detected or the inspectors failed to take appropriate
                                         actions. After the second entry using the stolen passport was discovered

14
   For some entries, an alien entered using a passport number slightly different from that in the lookout. For example, the lookout in
TECS may have been for passport number 123456, but the passport number recorded in TECS that was used by the alien for this entry
was 123465. However, there was also an admission record in TECS that, either previous or subsequent to this entry, the same alien used
passport number 123456, which was the subject of the lookout. Therefore, we concluded that the inspector made a data entry error and
entered the passport number as 123465 into TECS when it should have been 123456. We counted the entry using passport number 123465
as an entry after a lookout was posted.
15
   A name based lookout will match or “hit” an alien applying for admission using the same name and date of birth. The lookouts may
describe potential reasons for inadmissibility such as suspected terrorist, possible alien smuggler, suspected of narcotics smuggling, etc.
Therefore, if the alien again attempts to enter the United States, two “hits” will occur. One hit will occur for the stolen passport number
and the other for the name.



                                   A Review of the Use of Stolen Passports from                                                   Page 13
                                 Visa Waiver Countries to Enter the United States
                                          by a DHS analyst, three separate name based lookouts were posted. The
                                          lookouts were very speciﬁc about referring the individual to secondary
                                          inspections if encountered because he had used a stolen passport.16
                                          However, the individual successfully entered the United States two more
                                          times. During one attempt, he was referred to secondary inspections
                                          because, according to the secondary inspections report, “he [the alien]
                                          did not know where or how long he would be staying and was a possible
                                          immigrant without visa” and “pax [the alien] traveled to the U.S. before;
                                          systems check neg [negative]; was able to obtain address; has return
                                          tickets.”

                                    •     An alien using a stolen Belgian passport was admitted three times after
                                          the passport number lookout was posted. He was referred to secondary
                                          inspections three times and admitted. On his second visit, the secondary
                                          inspections record indicated that DHS records showed that he had
                                          overstayed his ﬁrst visit to the United States by four months. 17 The
                                          secondary inspections records stated: “subject had numerous valid IDs to
                                          also back-up story.” Despite the lookout for the stolen passport and the
                                          fact that he was a previous visa overstay, the inspector admitted the alien
                                          to the United States.

                              Once we had speciﬁc information about aliens who had been admitted to the
                              United States bearing stolen passports, we attempted to review the actions
                              taken by the inspectors to determine what occurred at primary and secondary
                              inspections.

                              Actions During Primary Inspections

                              Thirty-nine aliens were admitted directly from primary despite a lookout posted
                              for their stolen passports. We concluded that aliens were admitted directly from
                              primary inspections because the inspectors either did not heed the lookouts or did
                              not detect the forged information on the stolen passports, or both.



16
   This is an excerpt from the lookout entry: "Refer immigration SRI [senior inspector] on site for search & to make +I.D. [positive
identiﬁcation], search for additional passports or I.D., call HQS [headquarters]...there is a Headquarters order that exists mandating all
[country name omitted] passport#s will be run in TECS, insure that this is accomplished, “zero-tolerance”, do not be mis-lead by the
person’s having traveled to the U.S. multiple times in the past, this is not a reason or excuse for admission !! A person could be a [country
name omitted] citizen and still be in possession of stolen property, e.g., stolen Belgian passports! ...”
17
   Overstaying less than one year is normally not a legal ground for denying admission to an alien with a visa. But the VWP has several
speciﬁc criteria for ineligibility, and one of these is a previous overstay of any length, no matter how brief. As a legal matter, no alien who
has previously overstayed should ever be admitted under the VWP.


Page 14                                                  A Review of the Use of Stolen Passports from
                                                       Visa Waiver Countries to Enter the United States
                           The IFM requires that inspectors conduct TECS queries for all aliens during
                           primary inspections using the aliens’ last name, ﬁrst name, DOB, and passport
                           number. We conﬁrmed that entering these data into TECS resulted in lookout
                           “hits” for all 78 attempted entries, including the 39 admitted directly from primary
                           inspections.

                           We could not determine why the primary inspectors admitted the aliens with the
                           stolen passports. While some CBP ofﬁcials insisted that all stolen passport “hits”
                           are automatically sent to secondary inspection, our research did not conﬁrm this.

                           CBP ofﬁcials discussed a number of reasons why an inspector at primary
                           inspections might miss a lookout for a stolen passport. One reason is human
                           error, such as the inspector entering the wrong passport number into TECS.
                           Another reason may be that the inspector did not detect the forged information on
                           the passport. However, CBP ofﬁcials asserted that inspectors are “so well trained
                           and vigilant” that they would catch even the very best forgeries.

                           Some countries issue passports with two numbers. One number, the inventory
                           control number (ICN), is placed on the blank passport at the time of production.
                           When the passport is issued to an individual, a second number, the passport
                           issuance number, is added to the passport. CBP ofﬁcials said that blank stolen
                           passports are reported to the U.S. government by their ICNs. The lookouts
                           posted for the stolen blank passports are based on the blank passports’ ICNs. If
                           inspectors do not detect the forgery, they will enter the forged passport issuance
                           numbers rather than the ICNs, and the lookouts will not be detected. The ICN
                           issue has been identiﬁed in previous DOJ OIG reports.18

                           Immigration ofﬁcials have attempted to correct this problem by issuing new
                           guidance. However, the new guidance, issued in 1999, requires that inspectors
                           enter the perforated passport issuance number and enter the ICN number only if
                           the passport does not have a perforated passport issuance number. This guidance
                           does not address the problem. If the inspector does not detect the fraud, the
                           falsiﬁed perforated number on the stolen passport will be entered into TECS, not
                           the ICN. Therefore, the lookout will not be discovered, the stolen passport will go
                           undetected, and the alien will likely be admitted.




18
  The Potential for Fraud and INS’s Efforts to Reduce the Risks of the Visa Waiver Pilot Program, Report Number
I-99-10, March 1999, and Follow-up Report on the Visa Waiver Program, Report Number I-2002-002, December 2001.


                                 A Review of the Use of Stolen Passports from                                     Page 15
                               Visa Waiver Countries to Enter the United States
          Actions During Secondary Inspections

          We attempted to determine what actions the POE inspectors took when aliens
          using suspected stolen passports were referred to secondary inspections. The IFM
          offers little guidance to inspectors as to what information collected during the
          secondary inspections process must be recorded in TECS. The inspection records
          were often non existent or were so incomplete and sketchy as to be of little value.
          We could not ascertain why one alien was referred to secondary inspections while
          another was not, even though both used passports that had been reported stolen.
          Nor was it always ascertainable from the TECS records what factors led the
          secondary inspector to deny or grant admission in each case.

          The inspection records for 39 referrals to secondary inspections indicated that
          31 were for reasons other than the stolen passports, while only 8 appear related
          to stolen passport number lookout matches. Examples of inspection records that
          relate to other issues include:

              •   An alien using a stolen passport was referred to secondary inspections
                  because he was born in Morocco, but carried a Portuguese passport. The
                  alien was subsequently admitted; however, there were no secondary
                  inspections record in TECS explaining the admission.

              •   An alien was referred to secondary inspections because he “also
                  answered yes on back of I-94W.” His secondary inspections record
                  showed “[the alien] stated was arrested for DUI [driving under the
                  inﬂuence]; NCIC [National Crime Information Center] ck [check]
                  negative; … admit WT. Suspect.” The code “WT” indicates he was
                  admitted as a tourist under the VWP. We cannot conclude what the
                  inspector meant by “suspect.”

              •   An alien presenting a stolen Belgian passport was referred to secondary
                  inspections because “poss[ible] direct prim[ary] lookout; fraud/
                  misrep[resentation].” His secondary inspections record indicated that he
                  was a “conﬁrmed overstay; ….admit WB…” The code “WB” indicates
                  he was admitted as a business traveler under the VWP, even though
                  his passport was suspect and the inspection records indicated he had
                  previously violated the terms of his admission.




Page 16                       A Review of the Use of Stolen Passports from
                            Visa Waiver Countries to Enter the United States
                              Of the eight referrals to secondary inspections for reasons related to the stolen
                              passport, six were ultimately refused admission into the United States. Examples
                              of those aliens who were refused admission include:

                                    •     An alien using a stolen Spanish passport attempted entry, applied for
                                          admission under the VWP, and was referred to secondary inspections for
                                          a One-Day Lookout match19. According to the secondary inspections
                                          notes, “subject had Customs 1 day lookout for a 100% inspection and
                                          also had a lookout on the Spanish PP# reported as stolen.” The subject
                                          admitted under oath that he was a citizen of Peru and that he purchased
                                          the passport at the Spanish embassy in Lima. The alien was refused
                                          admission.

                                    •     An alien using a stolen Belgian passport attempted entry and was referred
                                          to secondary inspections for a stolen passport number lookout match.
                                          On his I-94, the subject listed Syria as his country of citizenship and
                                          residency. He was refused admission.

                                    •     An alien using a stolen French passport attempted entry and was
                                          referred to secondary inspections for a TECS match. During secondary
                                          inspections, the subject admitted that his country of citizenship was
                                          Algeria. The alien was placed in expedited removal and removed to
                                          Algeria.

                              However, two aliens with secondary inspections referral records that indicated
                              stolen passports were admitted:

                                    •     An alien using a stolen Belgian passport was referred to secondary
                                          inspections because of a TECS lookout match. According to the entry in
                                          the secondary inspections records, “subject never had problems before;
                                          never had PP stolen or lost; subject has many prior entrys [sic] and
                                          secondary evidence.”

                                    •     An alien using a stolen German passport was referred to secondary
                                          inspections to “verify genuinity [sic] of PP and holder of PP.” According
                                          to the secondary inspections notes, the passport was determined to be
                                          genuine, and the alien was admitted.

19
  A One-Day Lookout identiﬁes certain travelers who should be referred to secondary inspections upon their arrival at a U.S. POE. The
lookout is usually the result of analysis conducted on passenger information submitted by the airline prior to the aircraft’s arrival in the
United States. The POE PAU and the NTC conduct the analysis and either may issue the One-Day Lookout.


                                    A Review of the Use of Stolen Passports from                                                     Page 17
                                  Visa Waiver Countries to Enter the United States
          The IFM provides limited guidance for inspectors on how to respond to a “hit” on
          a lookout in general and no speciﬁc guidance for responding to a “hit” for a stolen
          passport. It provided no guidance on how the inspector in secondary inspections
          should resolve the “hit” and does not include possible scenarios under which
          the “hit” could be favorably resolved and the alien permitted to enter the United
          States.

          CBP ofﬁcials said that the burden of proof is on the aliens to provide evidence of
          their admissibility. They also said that the inspectors must have no doubt about
          the authenticity of the passports in order to admit the aliens, and that decisions
          to admit aliens with suspected stolen passports will almost always involve
          independent veriﬁcation by some other source. These other sources may include
          ICE’s FDL, DOS, or ofﬁcials from the alien’s home country. From the inspection
          referral reports, we found two cases where there were apparent attempts for
          independent veriﬁcation:

              •   According to the secondary inspections record for an alien presenting
                  a suspected stolen passport, “…attempted to contact State Dept…no
                  success.” The alien was admitted “WB,” indicating a VWP admission
                  for business purposes.

              •   According to the secondary inspections record for an alien presenting
                  a suspected stolen passport, “…subject presented stolen passport.
                  UK authorities conﬁrmed same. FDL unavailable…” The alien was
                  determined to be inadmissible and was removed from the United States.

          CBP ofﬁcials said that a supervisor’s review is required for all adverse actions
          taken against aliens or when discretionary decisions are made regarding
          admissibility. They said that it is normal practice to have a supervisor review any
          decision to admit an alien from secondary inspections, although there is no formal
          or written guidance requiring this action. Our research did not validate these
          assertions. We found evidence of non-compliance with procedures even though
          CBP ofﬁcials said that supervisors monitor the inspectors’ actions to ensure that
          all secondary inspection referrals are closed out and that all lookout queries were
          conducted.

          CBP ofﬁcials said that a name based lookout should be created for aliens detected
          attempting to use a stolen passport to enter the United States. While the IFM
          stipulates that lookouts must be entered within three days of the encounter, it does
          not specify situations when the lookouts must be created. We found name based



Page 18                       A Review of the Use of Stolen Passports from
                            Visa Waiver Countries to Enter the United States
                             lookouts posted by the POEs for 15 of the 21 aliens who were found inadmissible.
                             The lookouts were posted anywhere from one day to 20 weeks from the date
                             when the aliens were found inadmissible.

                             One CBP ofﬁcial said that while “errors [improper admissions] do occur” they
                             are not systemic, but rather the result of performance or training deﬁciencies
                             associated with the individual inspectors. CBP ofﬁcials acknowledged that the
                             inspection referral records provide an inadequate accounting of some actions
                             taken in secondary inspections. They also said that previous immigration policy
                             required that a paper-based log be kept of all secondary inspections actions.
                             According to the ofﬁcials, while the logs contained more details of the inspection,
                             their use has been discontinued. They said that new policies are being developed
                             that will require more details in the inspection referral reports.

                             Departure Veriﬁcation

                             We attempted to determine whether the aliens who were improperly admitted had
                             later departed the United States. CBP provided us with records that indicated
                             22 of the 57 admitted aliens departed the United States. However, we could not
                             conﬁrm this because, at the time of our review, the United States does not have
                             an adequate exit system. Previous reporting on this subject has detailed problems
                             with the entry-exit system and the associated record keeping.20 Because exit
                             records are unreliable, we do not know whether any of the aliens who entered the
                             United States using stolen passports departed or remain in the country.21

                             We recommend that the Commissioner of Customs and Border Protection:

                                   •     Recommendation 1: Require primary inspectors to refer aliens to
                                         secondary inspections when the aliens’ passports are the subjects of
                                         lookouts.

                                   •     Recommendation 2: Require inspectors to record in detail the results of
                                         the secondary inspections and justiﬁcations for subsequent admissions.



20
  Refer to the following reports: General Accounting Ofﬁce report, Overstay Tracking: A Key Component of Homeland Security and a
Layered Defense, GAO-04-82, May 2004; and DOJ OIG report, Follow-up Report on INS Efforts to Improve the Control of Nonimmigrant
Overstays, Report Number I-2002-006, April 2002.
21
   The United States Visitor and Immigrant Status Indicator Technology (US-VISIT) is the DHS program that will electronically record
the entry and exits of certain foreign travelers. US-VISIT is currently recording the entries of air passengers. DHS is piloting the exit
component at selected airports.



                                   A Review of the Use of Stolen Passports from                                                 Page 19
                                 Visa Waiver Countries to Enter the United States
                        •   Recommendation 3: Require supervisory review and approval of
                            an inspector’s decision to admit an alien who was the subject of a
                            lookout; and ensure that the review is recorded as part of the secondary
                            inspections record.

                        •   Recommendation 4: Require inspectors to timely enter name-based
                            lookouts for aliens found inadmissible.


          Monitoring and Investigating the Use of Stolen Passports

                    CBP does not have routine procedures to review admission records to determine
                    whether stolen passports have been used to gain entry into the United States.
                    Further, when entries using stolen passports are discovered, CBP does not have
                    formal procedures to convey this information to ICE for further investigation.

                    Monitoring Admission Records

                    According to CBP ofﬁcials, there is no procedure to screen the numbers of newly
                    reported stolen passports against admission records to determine whether the
                    stolen passports were used to enter the United States. CBP ofﬁcials said that
                    there was some analysis on reports of stolen passports; however, CBP ofﬁcials
                    characterized this activity as “ad hoc” rather than routine. They said that this
                    activity would be a labor intensive effort because several databases would have to
                    be individually searched to determine whether stolen passports were used. CBP
                    has considered making software modiﬁcations that would permit simultaneous
                    multiple database searches. However, there is no near-term solution.

                    CBP ofﬁcials said that there is no procedure to analyze the use of stolen passports
                    to identify trends or patterns associated with their use, such as users’ countries
                    of origin, linkages between users, and linkages between users and POEs and
                    carriers. However, they said that NTC is now doing some of this work and that
                    new guidance is under development to require the screening of stolen passport
                    numbers against admission records.

                    We recommend that the Commissioner of Customs and Border Protection:

                    Recommendation 5: Require routine reviews of admission records to identify
                    uses of stolen passports.




Page 20                                 A Review of the Use of Stolen Passports from
                                      Visa Waiver Countries to Enter the United States
                             Recommendation 6: Disseminate information on the use of stolen passports to
                             ICE for further investigation.

                             Investigating the Use of Stolen Passports

                             The DHS analysts who originally discovered the uses of stolen passports
                             generated at least four intelligence reports detailing these incidents. The
                             intelligence reports were disseminated to intelligence units within DHS, ICE, and
                             CBP; the El Paso Intelligence Center (EPIC);22 DOS; and NTC.

                             ICE ofﬁcials said that there is informal sharing of stolen passport information
                             between CBP analysts and ICE’s liaison at NTC. However, they acknowledged
                             that the processes have not been formalized into speciﬁc procedures or protocols.
                             Further, they had no knowledge of having received any previous information
                             concerning the incidents identiﬁed by DHS analysts.

                             ICE ofﬁcials said that its National Security Threat Protection Unit would be
                             responsible for investigating any information concerning the use of stolen
                             passports by persons with a “national security interest.” However, the ofﬁcials
                             said they had never received any information of this type from CBP.

                             National Security Concerns

                             The lack of routine reviews to determine whether stolen passports have been
                             used successfully and the lack of subsequent follow-up investigative actions
                             were particularly alarming to us when we examined two groups of stolen VWP
                             passports that may have a connection to known terrorist activity.

                                  Assassination in Afghanistan

                             In June 1999, 46 blank passports were stolen from a VWP country. Lookouts
                             were posted for the stolen passports in March 2000.23 Between October 1999 and
                             May 2000, six aliens using some of these passports attempted to enter the United




22
  The El Paso Intelligence Center (EPIC) was established in 1974 in El Paso, Texas. The Drug Enforcement Administration is the lead
federal agency at EPIC. Representatives from 15 other federal agencies, including ICE and CBP, as well as other organizations staff EPIC.
EPIC conducts analysis of information and intelligence pertaining to drug movement and immigration violations in the Western hemisphere
to provide intelligence support to law enforcement agencies.
23
   Although the lookouts were posted as soon as the stolen passport report was received from DOS, we were unable to determine the reason
for the delay in reporting the theft.


                                   A Review of the Use of Stolen Passports from                                                Page 21
                                 Visa Waiver Countries to Enter the United States
                                 States. Five were subsequently admitted. One admission occurred after the
                                 lookout was posted.

                                 What is disturbing about this incident is that one of this group of 46 stolen
                                 passports was found in the possession of a terrorist with links to Al Qaeda. On
                                 September 9, 2001, two days before the September 11th attacks, Commander
                                 Ahmad Shah Massoud, military chief of the Northern Alliance in Afghanistan,
                                 was assassinated in a suicide bombing carried out by two Moroccan terrorists
                                 posing as journalists. Al Qaeda later claimed responsibility for the assassination.
                                 Both terrorists were killed. Both terrorists were in possession of stolen passports,
                                 and DHS analysts later determined that one of those was from the block of 46
                                 stolen passports.

                                 Given the association of one passport from a relatively small block of stolen
                                 passports with Al Qaeda, we would expect that for national security reasons ICE
                                 and CBP would want to know more about the whereabouts and activities of the
                                 ﬁve aliens who entered the country using the other stolen passports from that
                                 same block.

                                      Al Qaeda Operations

                                 On June 6, 2001, thieves stole 708 blank passports from a VWP country.24 The
                                 theft was not reported to the U. S. government until April 2004. On April 23,
                                 2004, CBP posted stolen passport lookouts for the stolen blank passports.

                                 The potential signiﬁcance of the stolen passports is that they were stolen in the
                                 city that was also the location of the Al Qaeda cell that played a signiﬁcant role
                                 in providing ﬁnancial and logistical support for the September 11th terrorists.
                                 Between December 2001 and March 2004, 21 of these stolen passports were used
                                 by aliens attempting to enter the United States. In all cases, the attempted entries
                                 occurred before the stolen passports were reported to the U.S. government and
                                 before the lookouts were posted.

                                 Twenty of the aliens successfully entered the United States using the stolen
                                 passports. Only one alien was denied admission because the inspector concluded
                                 that the alien intended to violate the VWP requirement to leave the United States
                                 after 90 days.



24
     This group of stolen passports was not part of those described previously.



Page 22                                                    A Review of the Use of Stolen Passports from
                                                         Visa Waiver Countries to Enter the United States
                                CBP had departure records for only two of the aliens. We could not conﬁrm,
                                however, that any of the aliens actually left the country, nor can we conﬁrm that
                                any are still here. Because of the geographic association of where the theft of the
                                passports occurred and the Al Qaeda terrorist cell, we believe that the activities
                                of these 20 aliens while they were in the United States and their current locations
                                warrant further investigation.

                                After CBP develops information that newly reported stolen passports were
                                used to enter the United States and passes this information to ICE, ICE should
                                appropriately prioritize this actionable information and add the leads to its
                                caseload for further investigation.

                                We recommend that the Assistant Secretary for Immigration and Customs
                                Enforcement:

                                Recommendation 7: Investigate, locate, and remove from the United States,
                                persons who have used stolen passports to gain entry to the country and to report
                                the outcomes of its investigations to CBP.

                                Recommendation 8: Investigate the activities of aliens who used the stolen
                                passports with the Al Qaeda links while in the United States and determine their
                                current whereabouts.

               Efforts to Improve Detection of Stolen Passports

                                CBP has made some progress addressing the problem of stolen passports. For
                                example, NTC is now the designated lead organization responsible for collecting
                                reports of stolen passports received from foreign governments (through DOS)
                                and is responsible for posting the stolen passport lookouts in TECS. This
                                consolidation of responsibilities within CBP has reduced the lag time from the
                                receipt of a stolen passport report to entering the lookout to less than 24 hours.
                                CBP is undertaking other initiatives to improve its capability to detect or prevent
                                the uses of stolen passports, including additional training, developing new
                                policies and procedures, and an initiative with the International Civil Aviation
                                Organization (ICAO)25 to limit passports to one number.




25
     ICAO is a United Nations organization that promulgates international aviation law.



                                      A Review of the Use of Stolen Passports from                           Page 23
                                    Visa Waiver Countries to Enter the United States
          Training

          CBP ofﬁcials said that a training program was conducted in April 2002 to enhance
          inspectors’ skills in identifying suspected stolen passports. They commented
          that some of the data that we analyzed for our report predated this training and
          that improvement in the inspectors’ skills would have prevented some of the
          successful entries using stolen passports.

          While some of our data preceded the training, new information that we obtained
          as late as August 2004 indicated that the problems persist. For example, three
          aliens successfully used passports stolen from the Spanish embassy in Damascus,
          Syria, to enter the United States in June 2003. While lookouts had not been
          posted for these passports prior to the entries, the inspectors failed to detect the
          forgeries. Further, Spanish passports stolen from the Spanish consulate in Rio
          de Janeiro, Brazil, in September 2003 had lookouts posted in TECS in October
          2003. However, nine aliens used these stolen passports to enter the United States
          successfully between December 2003 and August 2004. Again, using French
          passports stolen in July 2003, 32 aliens entered the United States between August
          2003 and February 2004.

          New Policies and Procedures

          CBP recognizes the problem associated with multiple passport numbers.
          However, they said that the time it takes to query both the passport issuance
          number and the ICN would cause signiﬁcant delays at the POEs. In order to
          address the ICN problem and to mitigate negative impacts on POE processing
          times, CBP is considering a risk management approach as an interim solution.
          The concept is that CBP would identify certain passports, POEs, ﬂights, etc.
          where there is a high probability that stolen passports will be encountered. In
          these situations, inspectors would be required to conduct the multiple passport
          queries as part of the inspection process. CBP ofﬁcials expected a draft policy to
          be developed in the fall of 2004.

          ICAO Initiative

          The long-term solution to this problem is to require that all passports have a single
          passport number. CBP is working with ICAO to develop such a rule. Shortly,
          CBP expects to have an agreement signed that requires all signatories of the
          ICAO standards to begin producing passports with a single number. After the




Page 24                       A Review of the Use of Stolen Passports from
                            Visa Waiver Countries to Enter the United States
agreement is signed, however, it will take years before passports with multiple
numbers are completely replaced by those with single numbers.




    A Review of the Use of Stolen Passports from                           Page 25
  Visa Waiver Countries to Enter the United States
Appendix A
Management Comments




Page 26                 A Review of the Use of Stolen Passports from
                      Visa Waiver Countries to Enter the United States
                                                   Appendix A
                                                   Management Comments




  A Review of the Use of Stolen Passports from                   Page 27
Visa Waiver Countries to Enter the United States
Appendix A
Management Comments




Page 28                 A Review of the Use of Stolen Passports from
                      Visa Waiver Countries to Enter the United States
                                                   Appendix A
                                                   Management Comments




  A Review of the Use of Stolen Passports from                   Page 29
Visa Waiver Countries to Enter the United States
Appendix A
Management Comments




Page 30                 A Review of the Use of Stolen Passports from
                      Visa Waiver Countries to Enter the United States
                                                   Appendix A
                                                   Management Comments




  A Review of the Use of Stolen Passports from                   Page 31
Visa Waiver Countries to Enter the United States
          This page intentionally left blank.




Page 32         A Review of the Use of Stolen Passports from
              Visa Waiver Countries to Enter the United States
                                                                   Appendix B
                                                                   OIG Evaluation of Management Comments



We evaluated CBP’s and ICE’s written comments and have made changes to the report where we
deemed appropriate. Below is a summary of CBP’s and ICE’s written responses to the report’s
recommendations and our analysis of the responses.

BTS is concerned about our conclusions that were based on “a small and nonstatistical sample.”
Further, CBP “believes that no general conclusions can be drawn from the report due to the limited
size of the studied sample” and that “any conclusions do not reﬂect a comprehensive study of all
relevant data.” We agree that the number of stolen passports that we studied in our review was small in
comparison to the total number of passports presented to inspectors at POEs. Further, we recognize that
our sample did not represent the total universe of all stolen passports. We were very careful to describe
the stolen passports that we reviewed in our discussion of methodology and scope. However, the stolen
passports we studied were not a sample. We reviewed the entire universe of reported stolen passports
from the selected VWP countries during the stated period. Because it was not a sample, statistical
methodologies would not apply nor would they have been useful.

Our conclusions are based on our analysis of the stolen VWP passports in our study. We do not attempt
to extrapolate our conclusions to the entire universe of stolen passports. However, we do not believe
it would be unreasonable to assume that we would ﬁnd similar problems if we studied other groups of
stolen VWP passports.


Recommendation 1: Require primary inspectors to refer aliens to secondary inspections when the
aliens’ passports are the subjects of lookouts.

CBP Response: CBP concurs with our recommendation that additional instruction needs to be given
to inspectors regarding procedures when they encounter persons bearing suspected stolen passports.
The Inspectors Field Manual (IFM) requires inspectors to refer persons with stolen passport lookout
hits to secondary inspections. Further, a policy memorandum issued in April 2004 requires supervisory
review regarding the admissibility of persons who are subjects of lookouts. CBP plans to issue another
memorandum reemphasizing the requirement to refer all persons with passports that are subjects of
lookouts to secondary inspections. Further, CBP will explore the possibility of making a secondary
inspection referral that is the result of stolen passport lookout hit a mandatory ﬁeld in TECS.

OIG Evaluation: CBP’s plan to issue a new memorandum to reemphasize the requirement to refer all
persons to secondary inspection using suspected stolen passports is responsive to this recommendation.
CBP’s intention to make secondary inspection referrals resulting from stolen passport lookout hits
a mandatory ﬁeld in TECS should provide CBP managers with a tool to assist them in monitoring
inspector compliance with this policy. Please provide us with a copy of the memorandum when it is
issued. Recommendation 1 is resolved – open.




                           A Review of the Use of Stolen Passports from                           Page 33
                         Visa Waiver Countries to Enter the United States
Appendix B
OIG Evaluation of Management Comments



Recommendation 2: Require inspectors to record in detail the results of the secondary inspections and
justiﬁcations for subsequent admissions.

CBP Response: CBP agrees that inspectors should have more guidance in providing minimum required
information when recording the results of secondary inspections. BTS plans to develop procedures to
ensure that the secondary inspections records are complete.

OIG Evaluation: CBP’s development of new standards to ensure more complete and useful secondary
inspection records is responsive to this recommendation. Please provide us with a copy of the new
standards when they are issued. Recommendation 2 is resolved – open.


Recommendation 3: Require supervisory review and approval of an inspector’s decision to admit an
alien who was the subject of a lookout; and ensure that the review is recorded as part of the secondary
inspections record.

CBP Response: CBP concurs with our recommendation. A policy memorandum issued in April 2004
requires supervisory review regarding the admissibility of persons who are subjects of lookouts. CBP
plans to issue a new memorandum reemphasizing the requirement for supervisory review of admissions
after referral to secondary inspections and to record this review in the secondary inspections records.
Further, CBP will explore the possibility of making supervisory review a requirement in TECS.

OIG Evaluation: CBP’s plan to issue a memorandum reemphasizing the requirement for supervisory
review of admissions after referral to secondary inspections and to record this review in the secondary
inspections records is responsive to this recommendation. CBP’s intention to make the supervisory
review a requirement in TECS should provide CBP managers with a tool to help them ensure inspector
compliance with these procedures. Please provide us with a copy of the new memorandum when it is
issued. Recommendation 3 is resolved – open.


Recommendation 4: Require inspectors to timely enter name-based lookouts for aliens found
inadmissible.

CBP Response: CBP agrees that more timely posting of name-based lookouts is required. While the
IFM requires the posting of lookouts, it does not deﬁne “timely.” CBP will issue guidance that will
require the posting of lookouts concurrent with case processing. CBP will also explore the possibility of
modifying its computer systems to automatically post lookouts when adverse actions are completed.

OIG Evaluation: CBP’s new procedures to ensure more timely posting of lookouts is responsive to this
recommendation. In addition, CBP’s plan to make lookout posting an automatic process will ensure that



Page 34                                   A Review of the Use of Stolen Passports from
                                        Visa Waiver Countries to Enter the United States
                                                                    Appendix B
                                                                    OIG Evaluation of Management Comments



lookouts are always posted timely. Please provide us with a copy of the new procedures when they are
issued. Recommendation 4 is resolved – open.


Recommendation 5: Require routine reviews of admission records to identify uses of stolen passports.

CBP Response: CBP concurs with our recommendation to develop processes to review admission
records to identify uses of stolen passports. It plans to develop an automated mechanism to query
databases to identify uses of stolen passports. In addition, CBP will track “hits” on reported stolen
passports to assist the inspectors at the POEs in identifying the bearer of the suspected stolen passport.

OIG Evaluation: CBP’s development of a process to conduct regular reviews of admission records to
detect possible uses of stolen passports to enter the United States is responsive to this recommendation.
Please provide us with status reports on the progress made in developing the process. Recommendation
5 is resolved – open.


Recommendation 6: Disseminate information on the use of stolen passports to ICE for further
investigation.

CBP Response: CBP agrees that the process to pass information on the uses of stolen passports to ICE
for investigation should be formalized. It will add this responsibility to that of the ICE liaison at NTC.

OIG Evaluation: CBP’s intention to add the management of stolen passport information to the duties
of the ICE liaison at NTC is responsive to this recommendation. Please provide us with a copy of the
modiﬁed ICE liaison duty description when it is issued. Recommendation 6 is resolved – open.


Recommendation 7: Investigate, locate, and remove from the United States, persons who have used
stolen passports to gain entry to the country and to report the outcomes of its investigations to CBP.

ICE Response: ICE concurs with our recommendation to ensure that leads are reviewed and prioritized
for subsequent investigation and removal of the persons that used of stolen passports to enter the United
States.

OIG Evaluation: ICE’s intention to include leads developed by CBP of those persons suspected of
having used stolen passports to enter the United States is responsive to this recommendation. We also
want to ensure that a continuous dialogue exists between CBP analysts at NTC and ICE investigators.
This dialogue would help ensure that the information provided by CBP to ICE investigators is
actionable. In addition, we want to ensure that appropriate information gained as a result of the



                            A Review of the Use of Stolen Passports from                             Page 35
                          Visa Waiver Countries to Enter the United States
Appendix B
OIG Evaluation of Management Comments



investigation is passed on to CBP inspectors to assist them in their border security enforcement
responsibilities. Please provide us with a status report on ICE’s utilization of such leads in its
investigations. Recommendation 7 is resolved – open.


Recommendation 8: Investigate the activities of aliens who used the stolen passports with the Al
Qaeda links while in the United States and determine their current whereabouts.

ICE Response: ICE agrees with our recommendation and has initiated investigations concerning the
individuals that used stolen passports from the two countries to enter the United States.

OIG Evaluation: ICE is opening investigations of the persons who used certain passports with terrorist
links, which is responsive to this recommendation. Please provide us with a general status report on the
investigations. Recommendation 8 is resolved – open.




Page 36                                    A Review of the Use of Stolen Passports from
                                         Visa Waiver Countries to Enter the United States
                                                                          Appendix C
                                                                          Recommendations



Recommendations
            We recommend that the Commissioner of Customs and Border Protection:

            Recommendation 1: Require primary inspectors to refer aliens to secondary
            inspections when the aliens’ passports are the subjects of lookouts.

            Recommendation 2: Require inspectors to record in detail the results of the
            secondary inspections and justiﬁcations for subsequent admissions.

            Recommendation 3: Require supervisory review and approval of an inspector’s
            decision to admit an alien who was the subject of a lookout; and ensure that the
            review is recorded as part of the secondary inspections record.

            Recommendation 4: Require inspectors to timely enter name-based lookouts for
            aliens found inadmissible.

            Recommendation 5: Require routine reviews of admission records to identify
            uses of stolen passports.

            Recommendation 6: Disseminate information on the use of stolen passports to
            ICE for further investigation.


            We recommend that the Assistant Secretary for Immigration and Customs
            Enforcement:

            Recommendation 7: Investigate, locate, and remove from the United States,
            persons who have used stolen passports to gain entry to the country and to report
            the outcomes of its investigations to CBP.

            Recommendation 8: Investigate the activities of aliens who used the stolen
            passports with the Al Qaeda links while in the United States and determine their
            current whereabouts.




                A Review of the Use of Stolen Passports from                           Page 37
              Visa Waiver Countries to Enter the United States
Appendix D
Major Contributors to this Report



                      David M. Hiles, Chief Inspector, Department of Homeland Security,
                      Ofﬁce of Inspections, Evaluations, and Special Reviews

                      Douglas Ellice, Senior Inspector, Department of Homeland Security,
                      Ofﬁce of Inspections, Evaluations, and Special Reviews

                      Kenneth McKune, Senior Inspector, Department of Homeland Security,
                      Ofﬁce of Inspections, Evaluations, and Special Reviews

                      Kirsten Murray, Inspector, Department of Homeland Security,
                      Ofﬁce of Inspections, Evaluations, and Special Reviews




Page 38                                  A Review of the Use of Stolen Passports from
                                       Visa Waiver Countries to Enter the United States
                                                           Appendix E
                                                           Report Distribution



Department of Homeland Security

The Honorable Tom Ridge
Secretary

Admiral James Loy
Deputy Secretary

The Honorable Asa Hutchinson
Under Secretary, Border and Transportation Security

The Honorable Robert C. Bonner
Commissioner, Customs and Border Protection

The Honorable Michael J. Garcia
Assistant Secretary, Immigration and Customs Enforcement

Mr. Duncan Campbell
Chief of Staff

Ms. Susan K. Neely
Assistant Secretary, Public Affairs

Mr. Joe D. Whitley
General Counsel

Mr. Jack L. Johnson, Jr.
Chief Security Ofﬁcer

Ms. Anna F. Dixon
DHS OIG Liaison

Ms. M. Evelyn Lim
BTS Audit Liaison

Mr. Eddie Carlisle
ICE Audit Liaison

Ms. Cecelia Neglia
CBP Audit Liaison



    A Review of the Use of Stolen Passports from                       Page 39
  Visa Waiver Countries to Enter the United States
Appendix E
Report Distribution



                      Ofﬁce of Management and Budget

                      Mr. David Haun
                      Chief, Homeland Security Branch
                      Ofﬁce of Management and Budget

                      Mr. Jim Holm
                      Program Examiner
                      Ofﬁce of Management and Budget

                      Congress

                      Select Committee on Homeland Security
                      U.S. House of Representatives

                      Committee on Appropriations
                      U.S. House of Representatives

                      Committee on Government Reform
                      U.S. House of Representatives

                      Committee on the Judiciary
                      U.S. House of Representatives

                      Committee on Transportation and Infrastructure
                      U.S. House of Representatives

                      Committee on Commerce, Science and Transportation
                      United States Senate

                      Committee on the Judiciary
                      United States Senate

                      Committee on Governmental Affairs
                      United States Senate

                      Committee on Appropriations
                      United States Senate




Page 40                                  A Review of the Use of Stolen Passports from
                                       Visa Waiver Countries to Enter the United States
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.
dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
